           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
      PC MALL GOV, INCORPORATED
               CONTRACT


       July 2012    A-14-11-01133




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      July 31, 2012                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s PC Mall Gov, Incorporated, Contract
           (A-14-11-01133)


           OBJECTIVE
           Our objectives were to (1) ensure the Social Security Administration (SSA) received the
           goods and services for which it contracted and (2) review the services provided by PC
           Mall Gov, Incorporated, (PCMG) and the related costs charged to the Agency for
           adherence to the negotiated contract terms and applicable regulations.

           BACKGROUND
           Since 1990, SSA has been upgrading its Storage Tek Tape and Automated Cartridge
           System equipment through various contracts and purchase orders. SSA contracted
           with PCMG to update or replace its aging Powderhorn 9310 Tape Silo Infrastructure
           with newer SL8500 Tape Libraries, Virtual Storage Managers, state-of-the-art tape
           drives, and related equipment and media.

           SSA uses the PCMG firm-fixed-price 1 delivery order 2 contract, with a base year and
           four 1-year options, to acquire tape storage hardware, software, and related equipment
           as well as installation, maintenance, upgrades, and nation-wide relocation services. 3
           The


           1
            The President’s Council on Integrity & Efficiency, Advisory and Assistance Services: A Practical
           Reference Guide, December 2000, page 5, defines a firm-fixed-price contract as one in which the
           contractor agrees to perform the entire job for a pre-determined price. In January 2009, the President’s
           Council on Integrity and Efficiency was superseded by the Council of the Inspectors General on Integrity
           and Efficiency. See Inspector General Reform Act of 2008, Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 §
           11.
           2
            SSA issued delivery orders in the form of contract modifications to request the number of goods and
           services it needed from the contract price list.
           3
               SSA contract SS00-07-31209, issued September 28, 2007.
Page 2 - The Commissioner


period of performance is September 28, 2007 to September 27, 2012. As of
September 30, 2011, SSA had authorized 42 contract modifications and obligated
$74.18 million.

We examined the contract and associated invoices. We interviewed staff in SSA’s
Offices of Budget, Finance and Management; Human Resources; and Systems. We
also contacted Headquarters and field office staff regarding the equipment purchased
and installed. See Appendix B for additional scope and methodology and Appendix C
for our sampling methodology.

RESULTS OF REVIEW
Based on our analysis of contract invoices, equipment inventory, and contractor
employees’ background information, we determined that SSA received the goods and
services for which it contracted and was generally satisfied with PCMG’s work. The
costs billed to SSA generally adhered to the negotiated contract terms and applicable
contract guidelines. Nothing came to our attention to indicate that SSA did not comply
with applicable regulations.

We found that SSA had implemented controls and practices to help ensure PCMG
adhered to the contract terms based on our review of the contract and interviews with
the contract team, including the Contracting Officer’s Technical Representative
(COTR), 4 contracting officer (CO), and accounts payable staff. We found that the
COTR reviewed and certified invoices timely, which helped SSA’s Office of Finance
(OF) comply with Federal law and regulation. 5 Moreover, the CO negotiated several
discounts with PCMG that saved SSA $12.8 million.

We identified four areas where the Agency could improve its administrative oversight
and monitoring of the contract. Although these conditions did not materially affect
SSA’s ability to properly manage and oversee the PCMG contract, we are bringing
these conditions to your attention to help you improve your contract management and
oversight processes. Specifically, we found SSA did not

•   record its capital equipment 6 as personal property assets in the General Ledger
    (GL);


4
  The President’s Council on Integrity & Efficiency, Advisory and Assistance Services: A Practical
Reference Guide, December 2000, page 4 defines a COTR as an individual designated and authorized,
in writing, by the CO to perform specific technical functions.
5
  “In 1982, Congress enacted the Prompt Payment Act (‘‘Act’’; Pub. L. 97–177) to require Federal
agencies to pay their bills on a timely basis, to pay interest penalties when payments are made late, and
to take discounts only when payments are made by the discount date. The Act, as amended, is found at
31 U.S.C. Chapter 39” 64 Fed. Reg. 52580 (September 29, 1999).
6
 AIMS, § 04.01.03 defines capitalized property as “. . . personal property that has an acquisition value of
$100,000 or more and is recorded in the SSA General Ledger Accounts.”
Page 3 - The Commissioner


•     record PCMG purchases in a property inventory management system;
•     comply with its suitability determination 7 policies and procedures; and
•     comply with the Federal Information Security Management Act (FISMA) 8
      requirements for agencies to provide contractors with security awareness training.

SSA DID NOT RECORD ITS CAPITAL EQUIPMENT AS PERSONAL PROPERTY
ASSETS IN THE GL

We found that during Fiscal Years (FY) 2008 through 2011, SSA ordered and received
38 items, totaling $14.1 million, with purchase prices ranging from $109,000 to
$1.8 million but did not record these items in the GL. In addition, we found 12 items, 9
totaling $4.1 million, whose aggregate costs exceeded the $100,000 capitalization
threshold but were not recorded in the GL.

SSA’s Administrative Instructions Manual System (AIMS), Material Resource Manual
(MRM) section 04.01, defines property with an aggregate acquisition cost of
$100,000 or more as capitalized property (assets). 10 SSA recorded 36 of the 38 assets
as expenses instead of recording them as capitalized assets. Consequently, SSA
understated its personal property amount in the GL by $18 million. During these
4 years, SSA also overstated its information technology (IT) equipment expense and
understated its IT equipment depreciation.

The Agency used the SSA Streamlined Acquisition System (SSASy) to order from
PCMG 50 items whose costs exceeded $100,000. We reviewed the PCMG contract
and contract modifications 1 through 42 to determine the number of IT equipment items
ordered that exceeded $100,000. To test whether SSA properly recorded purchases
exceeding $100,000 as personal property assets, we compared contract-ordering data
to information recorded in the GL. In turn, we reviewed a GL query listing the
accounting code entries for PCMG purchases that exceeded $100,000. Our analysis
showed 38 items whose purchase price exceeded $100,000. However, only 2 of the
38 items had the asset accounting code. 11 The remainder had the expense accounting
code. 12

7
 5 C.F.R. § 731.101 Administrative Personnel, defines the suitability determination as a decision by the
Office of Personnel Management or an agency with delegated authority that a person is suitable or is not
suitable for employment in covered positions in the Federal Government or a specific Federal agency.
8
  Federal Information Security Management Act of 2002, Pub. L. No. 107-347, 116 Stat. 2899, Title III
(2002).
9
 For these 12 items, none of the purchase prices for the 36 component parts exceeded $100,000, but
when assembled, the total cost was $339,000, each ($339,000 X 12 = $4,068,000).
10
   AIMS, § 04.01.03 defines capitalized property as “personal property that has an acquisition value of
$100,000 or more and is recorded in the SSA General Ledger Accounts.”
11
   A Subobject Classification Code (SOC) of 3124 represents an asset.
12
     A SOC code of 315A or 2574 represents an expense.
Page 4 - The Commissioner


We discussed our concerns with Agency representatives. SSA’s OF staff informed us
that the GL posts the accounting codes recorded in SSASy. For personal property
assets to be posted to the GL, employees would need to code the orders in SSASy
using an asset accounting code instead of an expense accounting code. SSA staff also
stated that since the errors were less than 5 years old, the entries could be corrected.

In its FY 2011 financial statements, SSA reported $139 million in personal property
assets, but that total did not include the 48 PCMG items totaling $18 million. This
omission led to a discrepancy of at least 11.5 percent. However, this understatement
did not materially affect the Agency’s financial statements for Chief Financial Officers
Act 13 and Government Accountability Office (GAO)/ President’s Council on Integrity and
Efficiency (PCIE) 14 reporting purposes. 15

We recommend that the Agency
•     correct accounting codes for the items that should have been capitalized and
•     develop controls to prevent similar errors in the future.

For example, SSA could modify the SSASy-GL interface to display an error message
when the purchase price exceeds the capitalization threshold and the order contains an
accounting expense code. In addition, SSA could modify the GL system to generate a
periodic listing of purchases with accounting expense codes that exceeded the
capitalization threshold. In turn, GL staff could then notify the originating component to
correct entries.

After our fieldwork ended, OF staff members informed us that OF had instituted controls
to ensure OF staff records equipment as personal property assets in the GL. OF
created a weekly automated list of the SSASy equipment transactions meeting SSA’s
capitalization threshold. OF staff manually reviews contract documents to determine
whether the items listed on the query are correctly coded. OF staff reported they had
corrected the accounting codes in the GL to capitalize the items identified through the
PC Mall audit.

SSA DID NOT RECORD PCMG PURCHASES IN A PROPERTY INVENTORY
MANAGEMENT SYSTEM

This finding is similar to our previous finding because both involved SSA staff entering
information into an Agency financial or inventory system. However, in the first finding,
Agency staff made erroneous entries in the GL. For this finding, Agency staff omitted
the entry in the Agency’s inventory system.


13
     Chief Financial Officers Act of 1990, Pub. L. No. 101-576 § 303, 31 U.S.C. § 3515.
14
     GAO/PCIE Financial Audit Manual, Volume 1, Section 230, July 2008.
15
     The error-posting threshold for FY 2011 was $151 million.
Page 5 - The Commissioner


Our review determined that SSA did not record approximately $62 million in equipment
purchased under SSA contract SS00-07-31209 in any of its inventory management
systems. The items were not recorded because Agency staff responsible for entering
the data in the appropriate personal property inventory management system did not
know SSA’s inventory recording policies. By not having inventory recorded in any of the
Agency’s inventory management systems, SSA increased its risk of paying for
maintenance costs for items that were no longer operational.

SSA’s AIMS, MRM section 04.04 16 lists three personal property asset categories.

•     Capitalized property 17 is an item with an aggregate acquisition cost of $100,000 or
      more.
•     Accountable property 18 is an end item 19 with an aggregate acquisition value of
      $3,000 20 to $99,999.
•     Sensitive property is an item whose theft, loss, or misplacement could negatively
      affect SSA’s mission or goal to preserve the public trust regardless of cost. 21

SSA requires that the components owning any of these three types of property account
for and record them in SSA’s Sunflower Assets Property System. 22 The custodial
component should also record this property in its custodial property system. We could
not find all the IT equipment related to the PCGM contract in these property systems.

We reviewed the property management records in SSA’s Sunflower Assets Property
System and the Office of Telecommunications and Systems Operations (OTSO)
custodial property records. The Sunflower System extract had 3 items totaling
$110,000 recorded, and OTSO’s custodial inventory system extract had 1,208 items


16
     AIMS, § 04.04, Physical Inventory of Personal Property, April 2010.
17
  AIMS, § 04.01.03 defines capitalized property as “. . . personal property that has an acquisition value of
$100,000 or more and is recorded in the SSA General Ledger Accounts.”
18
  AIMS, § 04.01.03 issued in April 2006 defines accountable property as “The end item of personal
property with an aggregate acquisition value of $1,000 to $99,999 including property owned, leased or
otherwise under Government control.” “All personal property within the accountable dollar threshold must
be recorded in a system to be maintained by the PAO [Property Accountable Officer].”
19
     AIMS § 04.01.03 defines end item as an item of equipment that is not part of a larger item.
20
  When SSA issued the contract on September 28, 2007, the lower dollar threshold for accountable
property was $1,000. However, on April 12, 2010, SSA increased the lower dollar threshold of
accountable property to $3,000 via AIMS, section 04.04.02.
21
     AIMS, MRM, § 04.04,02 Policy, (April 2010).
22
  The Sunflower Assets Property System is a database that the Agency uses to account for sensitive
property that costs less than $3,000 and items of equipment with an acquisition cost greater than $3,000.
See generally, SSA, AIMS - MRM, 4.04 (April 12, 2010).
Page 6 - The Commissioner


totaling $31.79 million 23 recorded. Additionally, we found that OTSO’s custodial officers
had not performed periodic physical inventories and had not performed a physical
inventory when there was a change in custodial officers.

The Sunflower staff informed us that it is the owning component’s responsibility (that is,
OTSO) to enter its accountable property into the Sunflower System. Staff also stated
that it had not received any physical inventory reports from OTSO’s custodial officers
during the contract period.

During the contract period, OTSO created the Hewlett Packard Asset Management
(HPAM) inventory system. The HPAM staff stated they uploaded the records from
OTSO’s previous inventory system into HPAM so any PCMG items recorded in the prior
inventory system should be in HPAM. Items uploaded directly into the HPAM system
are formatted into files that Sunflower accesses to update its database.

We obtained data extracts from both Sunflower and HPAM. We identified three items in
Sunflower’s data extract that matched items on the HPAM data extract. In addition, we
could not verify that the Sunflower data extract included the entire PCMG inventory.

We recommend that the Agency adhere to its own policies and procedures to account
for equipment acquired under the PCMG contract in a property management system.

SSA MAY NOT HAVE COMPLIED WITH ITS SUITABILITY DETERMINATION
POLICIES AND PROCEDURES

We found nine individuals who received suitability determinations for other SSA
contracts who may have worked on the PCMG contract without PCMG or the COTR
notifying SSA’s Center for Personnel Security and Project Management (CPSPM).
PCMG informed SSA that these nine contractor personnel were available to assist in
the installation of the equipment purchased during the first 15 months of the contract.
During this time, CPSPM found only one person suitable to work on this contract.
However, we could not determine whether any of these nine had entered SSA buildings
to work on the PCMG contract. The CO, COTR, and CPSPM did not receive any
requests from PCMG to obtain suitability determinations for these individuals to work on
this PCMG contract.

According to the contract, 24 “The Contractor must submit the completed forms for each
employee and replacement employee (including each subcontractor employee) who will
be performing under the contract to the Protective Security SPO [now CPSPM]. The
Government will not permit Contractor personnel to perform under the contract until the
pre-screening process is complete.”



23
     The inventory did not have values for 160 of the 1,208 items.
24
     SSA contract SS00-07-31209, issued September 28, 2007, Section 14.0, page 38.
Page 7 - The Commissioner


It is possible that one or more of these nine worked on the PCMG contract without
seeking a new suitability letter. If this occurred, CPSPM did not have the opportunity to
determine whether the previous suitability determination for these individuals was
appropriate for the PCMG contract and issue new suitability letters for these individuals.

In a previous audit, 25 we identified instances where individuals received a suitability
determination for one SSA contract then transferred to another SSA contract. We
recommended SSA ensure that all contractor personnel working on different contracts
receive the appropriate suitability determinations for each contract even if it means
undergoing another suitability determination.

When an entity has multiple contracts with the Agency and those contracts have
different risk levels, individuals assigned to one contract may not have had the proper
background investigation to work under another contract. For example, some
contractor personnel may only need physical access to SSA facilities, and some
contractors may need both physical access and access to SSA’s information systems.
CPSPM personnel stated the COTR is responsible for obtaining a new suitability letter
from CPSPM for every individual transferring from one contract to another.

In response to our previous reviews, SSA informed us that it had implemented a new
system 26 to correct this issue. After the Contractor Enrollment Request Management
System (CERMS) implementation, we were not aware of any suitable individuals who
transferred to the PCMG contract without obtaining an additional suitability letter.
However, SSA staff agreed with us that CERMS was not designed to prevent or detect
instances where an individual found suitable to work on one contract then works on
another contract without obtaining an additional suitability determination. We reiterate
our prior recommendation that SSA ensure that all contractor personnel working on
different SSA contracts receive the appropriate suitability determinations for each
contract. The contractor personnel in this situation must receive a suitability letter from
CPSPM before working on any additional contracts.

After our fieldwork ended, CPSPM staff informed us that the standard suitability contract
clause would be updated so it would address our recommendation for this finding.




25
  SSA OIG, The Social Security Administration’s Oversight of MDRC Contract No. SS00-06-60075
(A-15-08-18010), December 22, 2008.
26
  SSA OIG, Status of Recommendations report for SSA OIG, The Social Security Administration’s
Oversight of MDRC Contract No. SS00-06-60075 (A-15-08-18010), December 22, 2008. SSA developed
a new application, the CERMS to better manage its contractor personnel screening process.
Page 8 - The Commissioner


SSA DID NOT COMPLY WITH FISMA’S REQUIREMENTS FOR AGENCIES TO
PROVIDE CONTRACTORS WITH SECURITY AWARENESS TRAINING

The Office of Acquisition and Grant’s (OAG) standardized security clauses27 used in the
PCMG contract did not contain or reference FISMA security requirements. 28 Without
these clauses, SSA staff monitoring contract compliance did not know they needed to
provide PCMG contractors with security awareness training and to request the
contractors sign a Personnel Security Certification form. By not receiving training, the
contractors could inadvertently violate SSA’s security, confidentiality, and ethics rules.
Moreover, should any contractor’s noncompliance result in the Agency bringing an
adverse action, not having the signed certification form could allow that contractor to
successfully claim ignorance of the policy and the consequences for noncompliance.

Congress enacted FISMA 29 in 2002 and each year, the Office of Management and
Budget (OMB) issues FISMA reporting instructions 30 containing OMB’s interpretations
of the FISMA requirements. According to OMB, 31 contracts for IT acquisitions should
contain FISMA, OMB Circular A-130, and National Institute of Standards and
Technology requirements. In 2006, SSA stated 32 that these security awareness
requirements apply to contractors even if contractors never access electronic
information systems as users. Moreover, in 2006, OMB stated 33 that contracts for IT
services must reflect FISMA requirements and agencies have had several years to
make these contract modifications. In particular, OMB stated 34 in 2007 that FISMA
requires that agencies provide contractors, with security awareness training and training
about the agency’s policies and rules of behavior.



27
  Clause AS 2401, Protection of Confidential Information (section 12.0 on page 28 of Contract); Clause
AS 2402, Contractor responsibilities Regarding Personally Identifiable Information (section 13.0 on
page 30 of contract; and Clause AS 403, Security Requirements Clause (section 14.0 on page 36 of
contract).
28
 OMB, Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, July 25, 2007.
29
  Federal Information Security Management Act of 2002, Pub. L. No. 107-347, 116 Stat. 2899, Title III
(2002).
30
     See OMB Memoranda Web Page (http://www.whitehouse.gov/omb/memoranda_default).
31
 OMB, Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, July 17, 2006.
32
     SSA, Information Systems Security Handbook, Appendix H, Security Training, November 15, 2006.
33
 OMB, Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, July 17, 2006.
34
 OMB, Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, July 25, 2007.
Page 9 - The Commissioner


In March 2007, SSA issued 35 its Information Systems Security Handbook (ISSH) to
meet the FISMA requirement to establish an agency-wide information security program
and the policies to support that program. SSA information security policy applies to all
SSA employees and contractors.

ISSH, Appendix H, 36 addresses SSA’s implementation of the FISMA security training
requirements. ISSH states 37 that all employees and contractors must receive a
standard level of security awareness training each year.

ISSH, Appendix B, 38 requires that all contractor personnel sign a Contractor Personnel
Security Certification form. Should the contractors need access to Agency systems,
they must sign the form before accessing SSA’s systems. The purpose of the form is to
document that the contractors have certified they understand SSA’s security,
confidentiality and ethics requirements and the penalties for noncompliance.

ISSH also has requirements for the CO, project officer, and security officers. 39 The CO
must ensure that all relevant security statements and contract clauses are included in all
solicitation and contract documents. The contract’s COTR40 must ensure that all
contractor personnel sign the Personnel Security Certification and maintain the
completed forms. In addition, the COTR and the security officers must inform contractor
personnel about their security responsibilities and make them aware of their
responsibilities for protecting sensitive information as specified in the contract.

In August 2007, OAG requested solicitations for bids on the PCMG contract. As stated
above, both OMB and SSA issued requirements that contractors must receive security
awareness training. 41 In addition, SSA issued its policy requiring that its contractors
sign a Personnel Security Certification form. 42 However, OAG did not update its
standard security clauses or create a new clause to include FISMA and Agency
requirements.


35
     SSA, Information Systems Security Handbook, Version 1.5, March 19, 2007.
36
     SSA, Information Systems Security Handbook, Appendix H, Security Training, November 15, 2006.
37
     Id.
38
  SSA, Information Systems Security Handbook, Appendix B, Roles and Responsibilities,
November 15, 2006.
39
     Id.
40
  Department of Health and Human Services, Project Officer Handbook, Section V, Post-Award
Administration.
41
  OMB, Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, July 25, 2007 and SSA, Information Systems
Security Handbook, Appendix H, Security Training, November 15, 2006.
42
     SSA, Information Systems Security Handbook, Appendix B, Roles and Responsibilities.
Page 10 - The Commissioner


We contacted the CO and COTR to obtain copies of the Personnel Security Certification
forms for the PCMG contractors. The CO and COTR stated they were not familiar with
the ISSH requirements regarding contractor security awareness training and the
requested certification forms. Because the CO and COTR were not aware of ISSH
requirements, they did not train the contractors, and the contractors did not sign the
certifications. In addition, the CO and COTR stated that the Chief Information Officer
reviewed and approved the contract without the ISSH requirement.

In our FY 2011 FISMA report, 43 we stated the Agency required that its employees
complete their FY 2011 annual security awareness training through an automated
interactive program. However, we found the Agency did not require that contractors
complete annual security awareness training through this interactive program. The
Agency plans to require contractors to use this automated program in FY 2012.

We recommended that SSA establish a timeframe for contractor personnel to complete
security awareness training. We reiterate this recommendation and also recommend
the Agency update the contract security clause to address contractors receiving security
awareness training and signing Personnel Security Certification forms.

CONCLUSION AND RECOMMENDATIONS
We found that SSA received the contracted goods and services and was generally
satisfied with PCMG’s work. In addition, the related costs PCMG charged to SSA
generally adhered to the negotiated contract terms and applicable contract terms.
Nothing came to our attention to indicate that SSA did not comply with applicable
regulations.

We also found that SSA implemented controls and practices to help ensure PCMG
adhered to the contract terms. We identified four areas where the Agency could
improve its administrative oversight and monitoring of the contract. Although these
conditions did not materially affect SSA’s ability to properly manage and oversee the
PCMG contract, we are bringing these conditions to your attention in hopes that this
information will improve your contract management and oversight processes. We
recommend SSA:

1. Correct accounting codes for the items that should have been capitalized and
   develop controls to prevent similar errors in the future.

2. Adhere to its own policies and procedures to account for equipment acquired under
   the PCMG contract in a property management system.

3. Ensure contractor personnel working on SSA contracts receive the appropriate
   suitability determinations for each contract.


43
  SSA OIG, Fiscal Year 2011 Evaluation of the Social Security Administration’s Compliance with the
Federal Information Security Management Act of 2002 (A-14-11-01134), November 14, 2011.
Page 11 - The Commissioner


4. Establish a timeframe for contractor personnel to complete security awareness
   training and update the contract security clause to address contractors receiving
   security awareness training and signing Personnel Security Certification forms.

AGENCY COMMENTS
The Agency agreed with our recommendations. See Appendix D for the full text of the
Agency’s comments.

OIG RESPONSE
We applaud the Agency for taking quick action to address our recommendations.
However, in reference to Recommendation 2, the Agency stated, “As of March 9, 2012,
all hardware at the National Computer Center has been asset tagged. Since its
inception, we properly tagged all assets at the Second Support Center. We consider
this recommendation closed for tracking purposes.” We do not agree that SSA's action
fully resolves our concerns. Until these assets are both tagged and recorded in a
property management system, this recommendation should remain open.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
AIMS          Administrative Instructions Manual System
CERMS         Contractor Enrollment Request Management System
C.F.R.        Code of Federal Regulations
CO            Contracting Officer
COTR          Contracting Officer’s Technical Representative
CPSPM         Center for Personnel Security and Project Management
DDS           Disability Determination Services
FISMA         Federal Information Security Management Act
FY            Fiscal Year
GL            General Ledger
HPAM          Hewlett Packard Asset Management
ISSH          Information Systems Security Handbook
IT            Information Technology
MRM           Material Resource Manual
OAG           Office of Acquisition and Grants
OF            Office of Finance
OMB           Office of Management and Budget
OIG           Office of the Inspector General
OTSO          Office of Telecommunications and Systems Operations
PCMG          PC Mall Government, Inc.
PSC           Program Service Center
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSASy         SSA's Streamlined Acquisition System
SOC           Subobject Classification Code
U.S.C.        United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our audit objectives, we:

1. Obtained and reviewed the Social Security Administration’s (SSA) contract with
   PC Mall Government, Incorporated (PCMG), Contract No. SS00-07-31209, and the
   42 contract modifications issued as of September 30, 2011.

2. Selected and tested a sample of 11 invoices related to the contract (Modification 00),
   and 7 of 36 contract modifications issued as of December 31, 2010. See sampling
   methodology in Appendix C.

3. Selected for review all PCMG employees and tested their associated suitability
   forms, security access, and security awareness training records.

4. Reviewed the applicable Federal laws, regulations, and guidance.

5. Contacted or interviewed key SSA management and staff in SSA’s Offices of
   Budget, Finance and Management; Human Resources; and Systems. In particular
   we contacted and interviewed those who executed and managed the contract,
   including SSA’s

      o contracting officer;
      o Offices of Budget, Finance, and Management; Financial Policy and
        Operations; and Finance and
      o Contracting Officer’s Technical Representative.

In addition to the contract-level review, we tested a portion of the contract to determine
how well SSA executed and managed the contract in cost verification, timeliness,
security and accountability. Our testing focused on reviewing all 29 invoices paid for the
orders shown on 8 modifications selected for our review (see Appendix C).

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data,
which allowed us to assess the reliability of the data and achieve our audit objectives.




                                           B-1
We performed our fieldwork at six SSA program service center locations, 1 one State
disability determination services location, 2 SSA’s data centers, 3 and SSA Headquarters4
between April 2010 and December 2011. The principal entities audited were SSA’s
Offices of Acquisitions and Grants; Financial Policy and Operations; and
Telecommunications and Systems Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




1
  We visited the Northeastern Program Service Center (PSC) in Jamaica, New York; the Mid-Atlantic PSC
in Philadelphia, Pennsylvania; the Southeastern PSC in Birmingham, Alabama; the Great Lakes PSC in
Chicago, Illinois; the Mid-America PSC in Kansas City, Missouri; and the Western PSC in Richmond,
California.
2
    We visited the North Carolina Disability Determination Services in Raleigh, North Carolina.
3
 The two SSA data centers we visited are the National Computer Center in Woodlawn, Maryland; and the
Second Support Center in Durham, North Carolina.
4
    The SSA Headquarters complex is in Woodlawn, Maryland.


                                                      B-2
                                                                                   Appendix C

Sampling Methodology
The Social Security Administration (SSA) obtained equipment, software and related
services through its contract with PC Mall Government, Incorporated (PCMG), by
issuing (1) task orders from the base contract and (2) contract modifications. During the
first 3 years of the 5-year contract, SSA issued task orders from the base contract and
36 modifications totaling approximately $68.7 million. We selected our sample items as
follows.

    •   We reviewed the 10 invoices with the highest dollar value from a population of
        119 invoices paid during the 3-year period. These 10 invoices represented
        purchases primarily for SSA’s 2 data centers totaling $32 million, which
        represents about 46.6 percent of the $68.7 million spent.
        Each of these 10 invoices had varying numbers of line items. We reviewed a
        minimum of 1, and maximum of 12, line items per invoice, for a total of 87 line
        items. We selected 179 items 1 from the 87 line items for physical inventory
        testing.

We selected 1 additional invoice for review, for $1.2 million that contained SSA’s
purchases for its 6 program service centers (PSC) and 7 of the 54 disability
determination services (DDS). We selected 29 items from the 9 line items for physical
inventory testing. We visited the North Carolina DDS site and all six PSCs to perform
the physical inventory testing.

    •   After selecting the samples, we attempted to match the sample items to a serial
        number list provided by the Agency. However, not all the equipment or products
        sampled had serial numbers. Some of the items ordered were subcomponents
        for larger machines or moving parts that did not have observable serial numbers.
        In addition, SSA had traded-in 14 items we selected for review. Consequently,
        we only tested 72 items that had observable serial numbers at the 2 data
        centers, the 6 PSCs, and 1 DDS. We observed all 72 items. These 72 items
        accounted for approximately $7.4 million in purchases.
    •   For the review of contract deliverables and invoices, we found that the contractor
        issued 28 invoices to obtain payment for the 8 modifications used in the physical
        inventory testing. We compared the quantity and unit prices from the invoices to
        the quantity and unit prices of goods ordered. Nothing came to our attention to
        indicate SSA paid more than the contract price for any item, paid for items not
        ordered, or paid for items not received.


1
  The items selected were primarily for equipment, but included software, installation fees, maintenance
fees, tape media and credits.
                  Appendix D

Agency Comments
                                               Social Security
MEMORANDUM


Date:      July 9, 2012                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s PC Mall
           Gov, Incorporated, Contract” (A-14-11-01133)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S PC MALL GOV, INCORPORATED,
CONTRACT” (A-14-11-01133)


Recommendation 1

Correct accounting codes for the items that should have been capitalized and develop controls to
prevent similar errors in the future.

Response

We agree. As stated on page 4 of this report, we have corrected the accounting codes and
instituted controls to prevent similar errors in the future. We consider this recommendation
closed for tracking purposes.

Recommendation 2

Adhere to its own policies and procedures to account for equipment acquired under the PC Mall
Gov, Incorporated contract in a property management system.

Response

We agree. As of March 9, 2012, all hardware at the National Computer Center has been asset
tagged. Since its inception, we properly tagged all assets at the Second Support Center. We
consider this recommendation closed for tracking purposes.

Recommendation 3

Ensure contractor personnel working on Social Security Administration contracts receive the
appropriate suitability determinations for each contract.

Response

We agree. We are in the process of updating the standard suitability contract clause to address
this finding.

Recommendation 4

Establish a timeframe for contractor personnel to complete security awareness training and
update the contract security clause to address contractors receiving security awareness training
and signing Personnel Security Certification forms.




                                               D-2
Response

We agree. In 2008 we established a standardized contract clause, AS 402, to require contractors
to complete an annual security certification to serve as security awareness training. By
implementing this standardized clause, we also established a timeframe for contractor personnel
to complete the security awareness training and sign the security certification forms. The
contractor’s employees must complete the form annually and the contractor must notify the
Office of Information Security (OIS) and the appropriate Contracting Officer when they meet
this requirement. We requested PC Mall Gov to have its employees complete this certification
(attached). However, since this contract pre-dates the implementation of AS 402 and the
contract has not been amended, we could not require PC Mall Gov employees or sub-contractors
to complete this certification.

OIS is responsible for coordinating our FISMA security activities and follows the annual
reporting instructions provided by the Office of Management and Budget (OMB). In 2011,
OMB issued memo M-11-33, FY 2011 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, which provided additional context
for contractor awareness training. In response, we are transitioning to an automated annual
security training capability for those contractors with systems access. We are re-examining the
training requirements of FISMA and our policy now requires that we have an automated training
capability for those with systems access in response to the revised FISMA Reporting Instructions
received in 2011. We will update our security awareness training requirements in the ISSH and
contract clauses as appropriate.




                                              D-3
D-4
D-5
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division
   Mary Ellen Moyer, Audit Manager

Acknowledgments

In addition to those named above:

   Alan Lang, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-11-01133.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
